The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.                     Office of the Inspector General
What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
                                                                                            Semiannual Report
• Conflicts of Interest
• Theft and Misuse of Property
• Travel Fraud
                                             • Misuse of Government Credit Card
                                             • Time and Attendance Abuse
                                             • Misuse of Information Technology Resources
                                                                                            to Congress
• Misconduct                                 • Program Mismanagement                        April 1, 2013–September 30, 2013

Ways To Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 27, No. 1
October 2013
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photo:

McGuire Nuclear Station.
Photo coutesy of Duke Energy, LLC
A Message From
the Inspector General
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the Nuclear Regulatory Commission (NRC) Office of the
Inspector General (OIG) from April 1, 2013, to September 30, 2013.

Our work reflects the legislative mandate of the Inspector General Act, which is
to identify and prevent fraud, waste, and abuse through the conduct of audits and investigations relating to
NRC programs and operations. The audits and investigations highlighted in this report demonstrate our
commitment to ensuring integrity and efficiency in NRC’s programs and operations.

During this reporting period, we focused our efforts on agency programs and operations that are critical to
the success of the agency’s core safety and security mission. Our work focused on areas such as compliance
with the regulations set forth in 10 CFR Part 51, adherence to the “Reducing Over-Classification Act,” and
compliance with NRC access authorization policies. Our efforts in focusing on these areas are designed to
assist the agency in making attentive, meaningful, and consistent programmatic and management decisions
that maximize efficiency and effectiveness.

NRC’s ability to effectively accomplish its safety and security mission is influenced by the effectiveness of its
corporate management programs in areas such as information technology and financial resources. One of
OIG’s strategic goals is to increase the economy, efficiency, and effectiveness with which NRC manages and
exercises stewardship over its resources. In this edition of the Semiannual Report, we highlighted our efforts
in identifying and addressing the risks associated with the principal corporate management areas of the
NRC, such as protecting Safeguards Information, preventing and detecting misuse in the travel charge card
program, proper financial control over the budget execution process, and information technology readiness
for Three White Flint North.

During this semiannual reporting period, we issued seven program audit reports. As a result of this work,
OIG made a number of recommendations to improve the effective and efficient operation of NRC’s safety,
security, and corporate management programs. OIG also opened 39 investigations, and completed 35 cases.
Seven of the open cases were referred to the Department of Justice, and six allegations were referred to
NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations, and our audits, investigations, and other activities highlighted in this report demonstrate
this ongoing commitment. OIG continuously strives to maintain the highest possible standards of
professionalism and quality in their audits and investigations. I would like to acknowledge our auditors,
investigators, and support staff for their superior work and ongoing commitment to the mission of this office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts between my
staff and those of the agency to address OIG findings and to implement recommended corrective actions
timely. I wish to thank them for their dedication and support, and I look forward to their continued
cooperation as we work together to ensure the integrity and efficiency of agency operations.




Hubert T. Bell
Inspector General



                                                                         April 1, 2013–September 30, 2013 — i
                                        Virgil C. Summer nuclear power station. Photo courtesy of South Carolina Electic & Gas Company

ii — NRC Office of the Inspector General Semiannual Report to Congress
Contents
Highlights  .               .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

	Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v

	Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Overview of NRC and OIG                                         .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2

		          OIG History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

		          OIG Mission and Goals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

	     Investigative Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  5

	     Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

	     Other OIG Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  7

Management and Performance Challenges  .                                                          .  .  .  .  .  .  .  .  .  . 8

Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           .  .  .  .  .  .  .  .  .  . 9

	     Audit Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  9

	     Audits in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

Investigations  .                 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

Summary of OIG Accomplishments                                                     .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

	     Investigative Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35

	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

	     Audit Resolution Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

Abbreviations and Acronyms  .                                      .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

Reporting Requirements  .  .  .  .                                 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44

Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .              .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45



                                                                                                        April 1, 2013–September 30, 2013 — iii
                                                            Keewaunee nuclear power station. Photo courtesy of Dominion Power.

iv — NRC Office of the Inspector General Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.

Audits
•	 The U.S. Nuclear Regulatory Commission (NRC) developed its Safeguards
   Information Local Area Network and Electronic Safe (SLES) system to store
   and manage electronic Safeguards Information (SGI) documents. SLES features
   two distinct components: a secure wireless Local Area Network (LAN) and
   an electronic safe (E-Safe) for SGI documents. The SGI LAN component
   is a network with a secure architecture and is dedicated for use in SGI data
   processing. The E-Safe component is a secure electronic data repository for SGI
   records. E-Safe users are able to create, capture, search, and retrieve data from
   this repository. The adoption of these various techniques into SGI operations
   was intended to ensure that E-Safe will contain all SGI created or received by
   NRC, thereby eliminating the need to maintain separate, individual collections
   of SGI. The audit objective was to determine if SLES meets its operational
   capabilities and applicable security controls.

•	 NRC established its travel charge card program to facilitate employee travel in
   support of the agency’s mission. Specifically, the purpose for using Government
   travel charge cards (referred to as travel cards) is to reduce the overall cost of travel
   to the Federal Government through lower administrative costs and by taking
   advantage of rebates offered by card vendors based on the volume of transactions
   and on prompt payment of bills. The Federal Travel Regulation mandates the
   use of travel cards for all official travel expenses unless specifically exempted.
   Under the program, travel cards can be used to pay for expenses related to official
   Government travel, such as lodging, meals, and rental cars. During fiscal year
   (FY) 2011, approximately $16.8 million was charged for NRC travel under this
   program. The audit objective was to assess the adequacy and effectiveness of
   NRC’s policies, procedures, and internal controls over the travel card program for
   preventing and detecting travel charge card misuse and delinquencies.

•	 The U.S. Government requires Federal agencies to establish an effective funds
   control process to ensure funds are used only for the purpose set forth by
   Congress and that expenditures do not exceed amounts authorized. The NRC
   budget process consists of strategic planning, budget formulation, submission
   of the agency’s budget to the Office of Management and Budget and Congress,
   approval of the budget by Congress, budget execution, and the reporting of
   budget and performance results. The budget execution phase refers generally to
   the time period during which the budget authority made through an appropriation
   remains available for obligation by NRC. NRC’s task during the budget execution
   process is to spend appropriated funds to carry out its mission in accordance with
   fiscal statutes. From FY 2008 through FY 2012, NRC’s budget appropriation
   ranged from $926.1 million to $1,066.9 million. The audit objectives were to
   determine whether (1) NRC maintains proper financial control over appropriated



                                                                            April 1, 2013–September 30, 2013 — v
                          and apportioned funds to ensure compliance with applicable Federal laws, policies,
                          and regulations and (2) opportunities exist to improve the budget execution
                          process.

                     •	 The NRC headquarters campus in Rockville, MD, comprises three buildings:
                        One White Flint North, Two White Flint North, and the recently completed
                        Three White Flint North (3WFN). NRC planned this new building to provide
                        adequate office space for all headquarters employees on one centralized campus,
                        replacing NRC offices located at four separate leased spaces in Montgomery
                        County, MD. Prior to moving staff into 3WFN, NRC must ensure that the
                        information technology (IT) infrastructure is in place to allow staff to be fully
                        functional in the new facility. This includes ensuring that IT systems located at
                        other NRC headquarters facilities are transported to 3WFN, installed, and tested
                        so that employees have access to the systems needed to do their jobs. The audit
                        objective was to evaluate NRC’s IT readiness during the transition to 3WFN.

                     •	 The National Environmental Policy Act of 1969 (NEPA) established a national
                        policy to encourage productive and enjoyable harmony between man and his
                        environment, promote efforts that will prevent or eliminate damage to the
                        environment, and enrich the understanding of ecological systems and natural
                        resources important to the United States. To implement NEPA, Federal
                        agencies must undertake an assessment of the environmental effects of their
                        proposed actions prior to making a decision. The two major purposes of the
                        NEPA process are better informed decisions and citizen involvement. NEPA
                        requires that Federal agencies prepare a detailed statement on the environmental
                        impacts and effects, alternatives to the action, and irreversible commitments
                        of resources involved in the action. This detailed statement is called an
                        Environmental Impact Statement. NRC regulations to implement NEPA are
                        found in Title 10, Code of Federal Regulations, Part 51 (10 CFR Part 51). The
                        audit objective was to determine whether NRC complies with the regulations in
                        10 CFR Part 51 relative to the preparation of environmental impact statements.

                     •	 The Reducing Over-Classification Act states that over-classification of
                        information interferes with information sharing, increases information security
                        costs, and needlessly limits stakeholder and public access to information.
                        Further, the act asserts that over-classification negatively affects dissemination of
                        information within the Federal Government; with State, local, and tribal entities;
                        and with the private sector. Lastly, the act states that Federal agencies that
                        perform classification are responsible for promoting compliance with applicable
                        laws, executive orders, and other authorities pertaining to classification. The
                        audit objectives were to (1) assess whether applicable classification policies,
                        procedures, rules, and regulations have been adopted, followed, and effectively
                        administered within such department, agency, or component, and (2) identify
                        policies, procedures, rules, regulations, or management practices that may be
                        contributing to persistent misclassification of material within such department,
                        agency, or component.




vi — NRC Office of the Inspector General Semiannual Report to Congress
•	 The objective of NRC’s personnel security program is to provide assurance
   that those with access to NRC facilities, classified information, sensitive NRC
   information and equipment, nuclear power facilities, and special nuclear
   material are reliable and trustworthy. NRC’s Personnel Security Branch (PSB)
   administers the personnel security program, granting or denying access to
   classified information. Access authorization is an administrative determination
   that an individual is eligible for a security clearance for access to Restricted Data
   or National Security Information. Access authorization eligibility requires an
   affirmative determination by PSB that the person in question is an acceptable
   security risk. Maintaining access authorization requires periodic background
   reinvestigations and adherence to security requirements. Additionally, individuals
   are required to self-report information to PSB that might compromise
   their continued eligibility for access to NRC facilities, material, or classified
   information. The audit objective was to determine if NRC has processes in place
   to ensure that NRC employees comply with personnel reporting responsibilities
   for continued NRC access authorization eligibility.




Investigations
•	 OIG completed an investigation based on a number of allegations in an anonymous
   letter sent to Congress and the NRC Commission, alleging that an NRC Region
   IV manager retaliated against regional staff for raising safety issues involving
   inspection activities at the Fort Calhoun Station nuclear power plant, concerning
   an onsite fire, and the adequacy of flood protection measures. It was further alleged
   that Region IV has a chilled workplace environment that dissuades inspectors from
   identifying safety issues that may be challenged by regional management.

•	 OIG completed an investigation into a congressional concern that a Region III
   staff member provided inaccurate and misleading information pertaining to a
   pressure boundary leak in a pipe at FirstEnergy’s Nuclear Power Station, Davis-
   Besse, located in Oak Harbor, OH.

•	 OIG completed an investigation into allegations that an NRC employee used their
   Washington Metropolitan Area Transit Authority (Metro) Transit Subsidy Benefits
   Program (TSBP) funds to pay for parking for the employee’s privately owned
   vehicle. An initial review of the employee’s Metro Transit Subsidy SmarTrip
   transaction history revealed there were several occasions where the employee paid
   for parking without reimbursing the money received from the TSBP.

•	 OIG completed an investigation into an anonymous allegation that an NRC
   contractor was not providing information technology infrastructure services and
   support mandated under its contract with NRC. According to the allegation, the
   NRC contractor was not providing printers, supplies, and maintenance that NRC
   desperately needed and was cutting costs by providing inexperienced personnel to
   work on the contract.



                                                                    April 1, 2013–September 30, 2013 — vii
                      •	 OIG completed an investigation into an allegation that an unknown individual(s)
                         sent a spear phishing e-mail to approximately 215 NRC e-mail accounts
                         containing a link to harvest NRC network user ID and passwords (credentials).
                         At least 12 NRC users were identified as having clicked on the link and accessing
                         the Google Doc spreadsheet page.

                      •	 OIG completed an investigation initiated by a letter from Congress.  The letter
                         conveyed that a constituent, a former Small Business Administration (SBA) 8(a)
                         business owner, alleged that NRC inappropriately awarded an SBA 8(a) contract
                         that the alleger previously held to a different contractor to provide human
                         resources support to NRC’s Region I office.




viii — NRC Office of the Inspector General Semiannual Report to Congress
Overview of NRC and OIG
NRC’s Mission
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear materials.
The agency succeeded the Atomic Energy Commission, which previously had
responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 R
    eactors—Commercial reactors that generate
   electric power and research and test reactors used
   for research, testing, and training.

•	 Materials—Uses of nuclear materials in medical,
    industrial, and academic settings and facilities that
    produce nuclear fuel.

•	 Waste—Transportation, storage, and disposal of
    nuclear materials and waste, and decommissioning of
    nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3) inspect facilities and users
of nuclear materials to ensure compliance with the requirements. These regulatory
functions relate both to nuclear power plants and other uses of nuclear materials—
like nuclear medicine programs at hospitals, academic activities at educational
institutions, research, and such industrial applications as gauges and testing
equipment.

NRC maintains a current Web site and a public document room at its headquarters
in Rockville, MD; holds public hearings and public meetings in local areas and at
NRC offices; and engages in discussions with individuals and organizations.

	




                                                                      April 1, 2013–September 30, 2013 — 1
                     OIG History, Mission, and Goals
                     OIG History
                     In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                     by newspapers, television, and radio stations took a toll on the American public’s
                     faith in its Government. The U.S. Congress knew it had to take action to restore
                     the public’s trust. It had to increase oversight of Federal programs and operations.
                     It had to create a mechanism to evaluate the effectiveness of Government programs.
                     And, it had to provide an independent voice for economy, efficiency, and effectiveness
                     within the Federal Government that would earn and maintain the trust of the
                     American people.

                     In response, Congress passed the landmark legislation known as the Inspector
                     General (IG) Act, which President Jimmy Carter signed into law in 1978. The IG
                     Act created independent Inspectors General, who would protect the integrity of
                     Government; improve program efficiency and effectiveness; prevent and detect
                     fraud, waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                     the American people fully and currently informed of the findings of IG work.

                     Today, the IG concept is a proven success. The IGs continue to deliver significant
                     benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                     have been returned to the Federal Government or have been better spent based
                     on recommendations identified through those audits and investigations. IG
                     investigations have also contributed to the prosecution of thousands of wrongdoers.
                     In addition, the IG concepts of good governance, accountability, and monetary
                     recovery encourage foreign governments to seek advice from IGs, with the goal of
                     replicating the basic IG principles in their own governments.




2 — NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in
accordance with the 1988 amendment to the IG Act. NRC OIG’s mission is
to (1) independently and objectively conduct and supervise audits and investigations
relating to NRC programs and operations; (2) prevent and detect fraud, waste, and
abuse; and (3) promote economy, efficiency, and effectiveness in NRC programs
and operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan that includes the major
challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed
to do so. OIG’s Strategic Plan features three goals, which generally align with NRC’s
mission and goals:

1.	 S
     trengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 E
     nhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 I ncrease the economy, efficiency, and effectiveness with which NRC
     manages and exercises stewardship over its resources.




                                                                    April 1, 2013–September 30, 2013 — 3
OIG Programs and Activities
                     Audit Program
                     The OIG Audit Program focuses on management and financial operations;
                     economy or efficiency with which an organization, program, or function is
                     managed; and whether the programs achieve intended results. OIG auditors
                     assess the degree to which an organization complies with laws, regulations, and
                     internal policies in carrying out programs, and they test program effectiveness as
                     well as the accuracy and reliability of financial statements. The overall objective
                     of an audit is to identify ways to enhance agency operations and promote greater
                     economy and efficiency. Audits comprise four phases:

                     •	 Survey
                             phase—An initial phase of the audit process is used to gather
                        information, without detailed verification, on the agency’s organization,
                        programs, activities, and functions. An assessment of vulnerable areas
                        determines whether further review is needed.

                     •	 V
                         erification phase—Detailed information is obtained to verify findings and
                        support conclusions and recommendations.

                     •	 R
                         eporting phase—The auditors present the information, findings,
                        conclusions, and recommendations that are supported by the evidence
                        gathered during the survey and verification phases. Exit conferences are held
                        with management officials to obtain their views on issues in the draft audit
                        report. Comments from the exit conferences are presented in the published
                        audit report, as appropriate. Formal written comments are included in their
                        entirety as an appendix in the published audit report.

                     •	 R
                         esolution phase—Positive change results from the resolution process
                        in which management takes action to improve operations based on the
                        recommendations in the published audit report. Management actions
                        are monitored until final action is taken on all recommendations. When
                        management and OIG cannot agree on the actions needed to correct a
                        problem identified in an audit report, the issue can be taken to the NRC
                        Chairman for resolution.

                     Each October, OIG issues an Annual Plan that summarizes the audits planned for
                     the coming fiscal year. Unanticipated high-priority issues may arise that generate
                     audits not listed in the Annual Plan. OIG audit staff continually monitor specific
                     issues areas to strengthen OIG’s internal coordination and overall planning
                     process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                     IAMs are assigned responsibility for keeping abreast of major agency programs
                     and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                     nuclear waste, international programs, security, information management, and
                     financial management and administrative programs.




4 — NRC Office of the Inspector General Semiannual Report to Congress
Investigative Program
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating misconduct by NRC employees, interfacing
with the Department of Justice on OIG-related criminal matters, and coordinating
investigations and other OIG initiatives with Federal, State, and local investigative
agencies and other OIGs. Investigations may be initiated as a result of allegations or
referrals from private citizens; licensee employees; NRC employees; Congress; other
Federal, State, and local law enforcement agencies; OIG audits; the OIG Hotline; and
OIG initiatives directed at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention to investigations of
alleged conduct by NRC staff that could adversely impact matters related to health
and safety. These investigations may address allegations of:

•	 Misconduct
            by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and safety.

•	 Failure
         by NRC management to ensure that health and safety matters are
   appropriately addressed.

•	 Failure
         by NRC to appropriately transact nuclear regulation publicly and candidly
   and to openly seek and consider the public’s input during the regulatory process.

•	 Conflicts
            of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for favorable
   or inappropriate treatment and the acceptance of gratuities.

•	 Fraud
       in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A primary
focus is electronic-related fraud in the business environment. OIG is committed to
improving the security of this constantly changing electronic business environment by
investigating unauthorized intrusions and computer-related fraud, and by conducting
computer forensic examinations. Other proactive initiatives focus on determining
instances of procurement fraud, theft of property, Government credit card abuse, and
fraud in Federal programs.

	




                                                                     April 1, 2013–September 30, 2013 — 5
                     Regulatory Review
                     Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
                     reviews existing and proposed legislation, regulations, policy, and implementing
                     Management Directives, and makes recommendations to the agency concerning
                     their impact on the economy and efficiency of agency programs and operations.

                     Regulatory review is intended to provide assistance and guidance to the agency
                     prior to the concurrence process so as to avoid formal implementation of potentially
                     flawed documents. OIG does not concur or object to the agency actions reflected in
                     the regulatory documents, but rather offers comments and requests responsive action
                     within specified timeframes.

                     Comments provided in regulatory review reflect an objective analysis of the language
                     of proposed agency statutes, directives, regulations, and policies resulting from OIG
                     insights from audits, investigations, and historical data and experience with agency
                     programs. OIG’s review is structured so as to identify vulnerabilities and offer
                     additional or alternative choices.

                     To effectively track the agency’s response to OIG regulatory review, comments
                     include a request for written replies within 90 days, with either a substantive reply or
                     status of issues raised by OIG.

                     From April 1, 2013, through September 30, 2013, OIG reviewed agency documents,
                     including Commission papers, Staff Requirements Memoranda, Federal Register
                     Notices, regulatory actions, and statutes.

                     The following comments were provided during this reporting period:

                     •	 The
                           most significant matter addressed during this period was draft Management
                        Directive 4.X, Budget Formulation. This draft is a major revision and update to
                        the Financial Management part of the directive system. Separating budget
                        formulation from the former chapter section where it was previously part of
                        Management Directive 4.7, NRC Long Range Planning, Programming and Budget
                        Formulation, this new directive comprehensively describes the budget process.
                        The draft was generally well constructed and organized. OIG comments focused
                        on suggesting additional clarification of the roles of each organization involved
                        in each step in the formulation process, and the benefit of including a glossary of
                        the terms used in the directive.




6 — NRC Office of the Inspector General Semiannual Report to Congress
Other OIG Activities


The OIG General Counsel, Maryann Lawrence Grodin, supported the IG
community in training and presentations. The Department of Justice Attorney
General guidelines for statutory law enforcement authority for criminal investigators
include the requirement for periodic refresher training on specified legal issues.
The Inspector General Criminal Investigator Academy was tasked with formulating the
syllabus for the training and identification of appropriate teaching staff. Ms. Grodin
was part of a group of attorneys from several IG offices who constructed a model
3-hour course and participated in training a cadre of attorney-trainers. Additionally,
Ms. Grodin, along with attorneys from other IG offices, presented the Civil and
Administrative Remedies class as part of the Inspector General Periodic Refresher Training
Program in Denver, CO and Shepardstown, WV, to agents from more than a dozen
Federal agencies.

Ms. Grodin also participated in the Inspector General Criminal Investigator Academy
Curriculum Review Working Group for the Periodic Refresher Training Program. The
working group focused on assessing the training program’s effectiveness in meeting
the objectives detailed in the Attorney General’s Guidelines for Offices of Inspector
General with Statutory Law Enforcement Authority.

The Council of Counsels to Inspectors General, a group of attorneys who serve as legal
advisors in the Federal IG community, sponsors a training program for law students
working as summer interns in IG offices in the Washington, DC, area. As part of
the introductory session for this year’s program, Ms. Grodin, along with Kirt West,
Counsel to the Inspector General at the National Reconnaissance Office, provided a
presentation on the concept and history of the IG offices in the Federal Government.
In addition to the statutory history, they related the political and philosophical
context of IG legal authority and functions. They illustrated these legal concepts
with examples from their experiences as IG counsels, and related cases they had
worked on in the IG community.




                                                                        April 1, 2013–September 30, 2013 — 7
Management and
Performance Challenges
                        Most Serious Management and Performance Challenges
                             Facing the Nuclear Regulatory Commission
                                       as of October 1, 2012*
                                           (as identified by the Inspector General)
                       Challenge 1	Management of regulatory processes to meet a changing environment
                                    in the oversight of nuclear materials.

                       Challenge 2	Management of internal NRC security and oversight of licensee
                                    security programs.

                       Challenge 3	Management of regulatory processes to meet a changing environment
                                    in the oversight of nuclear facilities.

                       Challenge 4	Management of issues associated with the safe storage of high-level
                                    radioactive waste when there is no long-term disposal solutions.

                       Challenge 5	 Management of information technology.

                       Challenge 6	Administration of all aspects of financial management and procurement.

                       Challenge 7	 Management of human capital.

                     *The most serious management and performance challenges are not ranked in any order
                      of importance.




8 — NRC Office of the Inspector General Semiannual Report to Congress
Audits
To help the agency improve its effectiveness and efficiency during this period, OIG
completed seven financial and performance audits, all of which are summarized here,
that resulted in numerous recommendations to NRC management. In addition, Defense
Contract Audit Agency completed three contract audits for OIG.

Audit Summaries
Audit of NRC’s Safeguards Information Local Area
Network and Electronic Safe
OIG Strategic Goal: Corporate Management
NRC developed its Safeguards Information Local Area Network and Electronic Safe
(SLES) system to store and manage electronic Safeguards Information (SGI) documents.

SLES features two distinct components: a secure wireless Local Area Network (LAN)
and an electronic safe (E-Safe) for SGI documents. The SGI LAN component is a
network with a secure architecture and is dedicated for use in SGI data processing.
The E-Safe component is a secure electronic data repository for SGI records. E-Safe
users are able to create, capture, search, and retrieve data from this repository. The
adoption of these various techniques into SGI operations was intended to ensure that
E-Safe will contain all SGI created or received by NRC, thereby eliminating the need
to maintain separate, individual collections of SGI.

The audit objective was to determine if SLES meets its operational capabilities and
applicable security controls.

Audit Results:
NRC has developed a secure electronic system to store SGI while also reducing paper
SGI and the space needed to store SGI documents; however, opportunities exist for
improvement. Specifically, the system (1) does not fully meet user needs and (2) uses
inconsistent access rights.

SLES Does Not Fully Meet User Needs

Information technology systems should improve agency productivity and efficiency
while reducing paper.1 SLES was created to allow NRC staff to share SGI in a secure
and effective manner. However, SLES does not fully meet user needs; for example,
the SLES official folder and document organization is confusing and not intuitive, and
the search function is poor and does not let individuals with “browse” permission see
document titles when conducting a formal search through the SLES search engine.
Moreover, while SLES has reduced the amount of SGI paper documents maintained
by NRC offices, a significant amount still remains. This has occurred because NRC
management has not given SLES high priority, specifically:


1
    Paperwork Reduction Act of 1995.


                                                                     April 1, 2013–September 30, 2013 — 9
                       •	 There
                               is no single individual who serves as a business “champion”2 for integrating SLES
                          into the NRC business process.

                       •	 N
                            RC lacks adequate communication channels to discuss system issues between SLES staff
                           and its users.

                       As a result, the system is not being used to its potential and more resources must be used to
                       maintain paper SGI records, possibly resulting in fiscal waste.

                       Access Rights Are Inconsistent

                       Federal regulations mandate security controls to protect systems and networks from
                       inappropriate access and unauthorized use. SLES access rights do not consistently meet the
                       intent of the SGI “need-to-know” requirement or an information system’s “least privilege”
                       principle because there is no standard process for granting SGI access to individuals or for
                       verifying user access rights. Providing SLES users access rights that exceed an individual’s
                       need-to-know or go beyond organizational business needs increases the risk that SGI could be
                       compromised. Additionally, not having a formal policy in place limits access to some individuals
                       who may need SGI access to effectively do their jobs.

                       (Addresses Management and Performance Challenge #5)



                       Audit of NRC’s Travel Charge Card Program
                       OIG Strategic Goal: Corporate Management
                                                                    NRC established its travel charge card program
                                                                    (referred to as the program) to facilitate employee
                                                                    travel in support of the agency’s mission.
                                                                    Specifically, the purpose for using Government
                                                                    charge cards designated for travel purposes
                                                                    (referred to as travel cards) is to reduce the
                                                                    overall cost of travel to the Federal Government
                                                                    through lower administrative costs and by taking
                                                                    advantage of rebates offered by card vendors
Source: OIG analysis
of Citibank data
                       based on the volume of transactions and on prompt payment of bills. The Federal Travel
                       Regulation mandates the use of travel cards for all official travel expenses unless specifically
                       exempted. Under the program, travel cards can be used to pay for expenses related to official
                       Government travel, such as lodging, meals, and rental cars. During FY 2011, approximately
                       $16.8 million was charged for travel under this program. As of September 2011, approximately
                       2,618 employees had individually billed cards, and NRC held 5 centrally billed cards.

                       The audit objective was to assess the adequacy and effectiveness of NRC’s policies, procedures,
                       and internal controls over the travel card program for preventing and detecting travel charge
                       card misuse and delinquencies.


                       2
                           A champion voluntarily works to facilitate the adoption, implementation, and success of a cause, policy, program,
                           project, or product.


10 — NRC Office of the Inspector General Semiannual Report to Congress
Audit Results
NRC’s travel card program has policies, procedures, and internal controls in place
to prevent and detect travel card misuse and delinquencies. NRC also has policies
in place to lower the overall cost of official travel to the agency. However, OIG
determined the efficiency and effectiveness of NRC’s management of rebates and
quarterly data reporting to the Office of Management and Budget (OMB) can be
improved. Specifically, opportunities exist to (1) maximize NRC’s rebates by using
recommended Federal strategies and (2) improve quarterly reported data accuracy by
employing available tools.

Also, during the course of the audit, OIG found that nearly two-thirds of agency card
holders were not in compliance with OMB training requirements. OIG discussed this
matter with Office of the Chief Financial Officer (OCFO) staff, who agreed with this
finding and took corrective action.

Opportunity To Maximize Rebates

NRC’s travel card program management does not maximize travel card rebates. For
example, NRC does not monitor use of the card by frequent travelers, mandate split
disbursement,3 or pay centrally billed accounts within a day of invoice receipt – all
conventional strategies for improving rebates for use of the travel card. OIG’s analysis
of the FY 2011 rebate shows that the agency could have received approximately
$60,000 more than the $96,242 it received on net charges of approximately $16.8
million. NRC does not maximize its rebate because program management staff do
not effectively use strategies identified in OMB Circular A-123, Appendix B, available
to Federal agencies to increase rebate payments. Specifically, the agency does not
pay invoices as received in centrally billed accounts for the productivity rebate and
does not explore basis point options for the sales rebate. As a result, NRC does not
receive the maximum rebate, which, in turn, makes program costs unnecessarily high.
Further, NRC is not in full compliance with OMB requirements to maximize rebates.

Opportunity To Improve Reported Data Quality

OMB requires travel card program managers to report program data at least
quarterly. OCFO officials responsible for the travel card program did not report
accurate or supportable quarterly data to OMB. In FY 2011, NRC reported incorrect
or unsupportable information for 6 of the 14 required data elements. This occurred
because program managers did not effectively use the tools available through
Citibank’s electronic access system4 and other sources. As a result, NRC management
did not receive accurate information to inform program decisions.

(Addresses Management and Performance Challenge #6)



3
    The Government pays the credit card vendor directly when a traveler uses the card and files a voucher for
    reimbursement, while additional money owed to the traveler goes to the traveler’s bank account. Without split
    disbursement, the traveler receives the entire voucher settlement and in turn pays the credit card bill.
4
    The charge card contractor’s Internet-based system that provides account access and a variety of reports that assist
    in the effective management of the charge card programs.


                                                                                                 April 1, 2013–September 30, 2013 — 11
                     Audit of NRC’s Budget Execution Process
                     OIG Strategic Goal: Corporate Management
                                                                       The U.S. Government requires
                                                                       Federal agencies to establish an
                                                                       effective funds control process to
                                                                       ensure funds are used only for the
                                                                       purpose set forth by Congress and
                                                                       that expenditures do not exceed
                                                                       amounts authorized. The NRC
                                                                       budget process consists of strategic
                                                                       planning; budget formulation;
                                                                       submission of the agency’s budget
                                                                       to OMB and Congress; approval
                                                                       of the budget by Congress; budget
Source: NRC OCFO
                     execution; and the reporting of budget and performance results. The budget
                     execution phase refers generally to the time period during which the budget authority
                     made through an appropriation remains available for obligation by NRC. NRC’s
                     task during the budget execution process is to spend appropriated funds to carry out
                     its mission in accordance with fiscal statutes. Between FY 2008 and FY 2012, NRC’s
                     budget appropriation ranged from $926.1 million to $1,066.9 million.5

                     The audit objectives were to determine whether (1) NRC maintains proper
                     financial control over appropriated and apportioned6 funds to ensure compliance
                     with applicable Federal laws, policies, and regulations and (2) opportunities exist to
                     improve the budget execution process.

                     Audit Results:
                     Overall, the agency maintains proper financial control over appropriated and apportioned
                     funds to ensure compliance with applicable Federal laws, policies, and regulations.
                     However, OIG identified opportunities for improvement in the following areas:

                     •	 Incomplete
                                 implementation of Planning, Budgeting, and Performance
                        Management process.

                     •	 Insufficient
                                   understanding of Financial Accounting and Integrated Management
                        Information System (FAIMIS) reporting capabilities.

                     •	 Incomplete delegation and budget execution training records.

                     Addressing these concerns will strengthen NRC’s budget execution process.

                     5
                         The FY 2010 enacted budget was $1,066.9 million.
                     6
                         After Congress passes an appropriation, the Office of Management and Budget provides apportionments of
                         funds, usually on a quarterly basis, to Federal agencies to make money available for use for specified time periods,
                         programs, activities, projects, objects, or any combination of these.


12 — NRC Office of the Inspector General Semiannual Report to Congress
Incomplete Implementation of Planning, Budgeting, and Performance
Management Process

NRC developed the Planning, Budgeting, and Performance Management process
to integrate NRC’s (1) strategic planning, (2) budget formulation (resource
determination process), (3) budget execution (or monitoring performance process),
and (4) performance assessment activities. However, NRC’s budget formulation
and execution processes are not aligned. In practice, NRC’s budget formulation is
based on business lines but executed at the allowance holder level. For example,
an NRC office may have the lead on two business lines that cross multiple offices.
During budget execution, that same office controls expenditures only within its office.
Moreover, inconsistent use of financial management system codes further inhibits
budget implementation. Although the agency recognizes this problem, management
has not yet implemented all the elements in the Planning, Budgeting, and
Performance Management process, and has not enforced the use of certain financial
management system codes. As a result, NRC’s current budget process inhibits the
agency’s ability to determine agency business line costs.

Insufficient Understanding of System Reporting Capabilities

NRC staff do not fully understand how to obtain budget information from FAIMIS
that would be useful for decisionmaking. In October 2010, NRC began using
FAIMIS as the agency’s core financial system and the official system of record for
budget transactions. OIG conducted multiple interviews with staff throughout the
agency who work on budget execution and learned that staff have difficulty obtaining
and understanding budget execution reports. Although program managers need both
operational and financial data to determine whether they are meeting agency goals,
the agency has not provided sufficient training on FAIMIS reporting functionalities
and report availability. Without a full understanding of system capabilities to access
budget information, staff may not have the data needed to make informed business
decisions.

Incomplete Delegation and Budget Execution Training Records

According to Federal and agency guidance, NRC must maintain appropriate records
and make such documentation available. However, supporting documents regarding
financial management delegations and budget execution training are incomplete. This
has occurred because management does not have written recordkeeping procedures
for maintaining these documents. In addition, agency guidance does not specify
whether allowance holder delegations should be to the position or specific individual.
Without appropriate documentation, individuals may be executing transactions
outside their authority.

(Addresses Management and Performance Challenges #6)




                                                                    April 1, 2013–September 30, 2013 — 13
                     Audit of NRC’s Information Technology Readiness for
                     Three White Flint North
                     OIG Strategic Goal: Corporate Management
                     The NRC headquarters campus in Rockville, MD, comprises three buildings: One
                     White Flint North, Two White Flint North, and the recently completed Three White
                     Flint North (3WFN). NRC planned this new building to provide adequate office
                     space for all headquarters employees on one centralized campus, replacing NRC offices
                     located at four separate leased spaces in Montgomery County, MD.
                     Prior to moving staff into 3WFN, NRC must ensure that the information technology
                     (IT) infrastructure is in place to allow staff to be fully functional in the new facility.
                     This includes ensuring that IT systems located at other NRC headquarters facilities are
                     transported to 3WFN, installed, and tested so that employees have access to the systems
                     needed to do their jobs.
                     NRC has moved its Professional Development Center and Office of the Chief Human
                     Capital Officer to 3WFN. Staff from other NRC offices will occupy 3WFN in 2013 as
                     NRC revises its move schedule to align with new General Services Administration space
                     requirements.7
                     The audit objective was to evaluate NRC’s IT readiness during the transition to 3WFN.

                     Audit Results:
                     IT systems should undergo testing and necessary corrective action to ensure readiness
                     for users upon deployment. Infrastructure testing included network connectivity and
                     individual workstation testing.8 Based on interviews, contract analysis, and direct
                     observation, OIG determined that NRC tested IT infrastructure in 3WFN and has
                     appropriate plans for future system deployments in 3WFN.
                     Infrastructure testing included network connectivity and individual workstation testing.
                     NRC and its network maintenance contractor have procedures to move staff IT equipment
                     into their new 3WFN workspace, and for testing this equipment before staff return to work.
                     Some data systems, such as High Performance Computing,9 have separate contracts that
                     provide for equipment setup and testing in 3WFN. Further, NRC’s new Operations Center
                     in 3WFN will undergo several months of testing to familiarize staff with the facility and its
                     IT equipment, including mock exercises designed to simulate incident response scenarios
                     involving NRC headquarters and regional personnel.
                     OIG auditors concluded that NRC has performed appropriate IT system deployment
                     planning and testing, and that these measures provide adequate IT readiness at 3WFN.
                     (Addresses Management and Performance Challenge #5)

                     7
                         Since the issuance of this audit report, two additional NRC offices have moved into 3WFN: the Office of Nuclear
                         Security and Incident Response and Office of Nuclear Material Safety and Safeguards.
                     8
                         NRC conducted testing of electrical and other infrastructure in 3WFN at the end of the building’s construction
                         phase in 2012.
                     9
                         NRC’s High Performance Computing System is used to perform nuclear reactor safety analysis, such as fluid
                         dynamics computations.


14 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Compliance with 10 CFR Part 51 Relative
to Environmental Impact Statements
OIG Strategic Goal: Safey
The National Environmental Policy Act of 1969 (NEPA)
established a national policy to encourage productive and
enjoyable harmony between man and his environment,
promote efforts that will prevent or eliminate damage to the
environment, and enrich the understanding of ecological
systems and natural resources important to the United States.
                                                                  NRC’s most recent final EIS, published in four volumes.	
To implement NEPA, Federal agencies must undertake an
                                                                                                                 Source: OIG
assessment of the environmental effects of their proposed
actions prior to making a decision. The two major purposes of the NEPA process
are better informed decisions and citizen involvement. NEPA requires that Federal
agencies prepare a detailed statement on the environmental impacts and effects,
alternatives to the action, and irreversible commitments of resources involved in the
action. This detailed statement is called an Environmental Impact Statement (EIS).

NRC regulations to implement NEPA are found in Title 10, Code of Federal
Regulations, Part 51 (10 CFR Part 51). The purposes of NEPA and its
implementation dovetail with NRC’s organizational values of openness and
transparency, as expressed in the Principles of Good Regulation and the Strategic Plan.
NRC activities generate a great deal of public interest. For their participation to be
meaningful, stakeholders must have access to clear and understandable information
about NRC’s role, process, activities, and decisionmaking.

The audit objective was to determine whether NRC complies with the regulations in
10 CFR Part 51 relative to the preparation of environmental impact statements.

Audit Results:
In recent years, NRC has taken steps to enhance its NEPA reviews and procedures.
These initiatives have generated important discussions and provide a context for long-
term progress. However, OIG identified areas of noncompliance with 10 CFR Part
51 relative to disclosure and public involvement. In order to clearly communicate
the results of and involve the public in its environmental reviews, NRC management
should strengthen its EIS preparation process by:

•	 Publishing a Record of Decision (ROD) that complies with 10 CFR 51.102 and 51.103.10
•	 Publishing an EIS that complies with the format provided in 10 CFR Part 51,
    Appendix A.
•	 Performing all regulatory requirements for scoping for EISs that tier off of a generic EIS.11

10
     The ROD ties together the results of the environmental review and serves as an important vehicle for informing
     the public of the agency’s conclusions and recommendations.
11
     NRC uses the term generic EIS to refer to a programmatic EIS, which assesses the scope and impact of the
     environmental effects that would be associated with an action at numerous sites.


                                                                                             April 1, 2013–September 30, 2013 — 15
                     Records of Decision Not in Full Compliance With Regulations

                     NRC offices with EIS preparation responsibilities do not publish a ROD that
                     complies with the requirements in 10 CFR Part 51. NRC regulations provide
                     specific criteria for the publication of a ROD and what must be included in a ROD.
                     NRC does not publish a ROD that complies with its regulations because within
                     the agency there are incorrect and varying interpretations of what the regulations
                     require. Thus, NRC is not in compliance with its regulations. As a result, NRC
                     (1) does not adequately notify the public, including Congress, Federal agencies,
                     government partners, and other stakeholders, of its decision and the basis of that
                     decision and (2) undermines its extensive efforts to be clear, open, and transparent.

                     NRC EISs Do Not Follow the Required Format

                     NRC’s EISs do not follow the format described by 10 CFR Part 51, Appendix A.
                     Appendix A to 10 CFR Part 51 identifies the format elements that must be included.
                     NRC’s EISs do not follow the Appendix A format because controls are not in place to
                     assure use of that format. Thus, NRC is not in compliance with its regulations. As
                     a result, NRC (1) does not clearly present, in an accessible way, the proposed action,
                     alternatives, and conclusions to stakeholders and (2) undermines its extensive efforts
                     to be clear, open, and transparent.

                     NRC Not in Full Compliance With Scoping Regulations

                     NRC did not fully comply with scoping regulations for in-situ uranium recovery
                     EISs that tier off of a generic EIS. NRC regulations require scoping when preparing
                     an EIS and specify actions the agency must take during the scoping process. NRC
                     did not fully comply with the scoping regulations because there is an incorrect
                     understanding of the regulations related to scoping for EISs that tier off of a generic
                     EIS. Thus, NRC is not in compliance with its regulations. By not fully complying
                     with the regulations, NRC may exclude some interested persons who wish to
                     participate in the process. Additionally, NRC undermines its extensive efforts to be
                     clear, open, and transparent.

                     (Addresses Management and Performance Challenges #1 and #3)



                     Audit of NRC’s Implementation of Federal Classified
                     Information Laws and Policies
                     OIG Strategic Goal: Security
                     The Reducing Over-Classification Act12 (the Act) states that over-classification of
                     information interferes with information sharing, increases information security costs,
                     and needlessly limits stakeholder and public access to information. Further, the Act
                     asserts that over-classification negatively affects dissemination of information within

                     12
                          Public Law 111-258/H.R. 553, “Reducing Over-Classification Act,” October 7, 2010.


16 — NRC Office of the Inspector General Semiannual Report to Congress
the Federal Government; with State, local, and tribal entities; and with the private
sector.13 Lastly, the Act states that Federal agencies that perform classification are
responsible for promoting compliance with applicable laws, executive orders, and
other authorities pertaining to classification.

NRC must protect classified information related to Federal Government programs
for securing nuclear materials and facilities. Classification is the process of identifying
information that must be protected against unauthorized disclosure in the interest of
national security. Classification may be performed only by personnel who have been
delegated special authority and undergone required training. Specifically, Original
Classifiers can make an initial determination, in the interest of national security, that
information requires protection from unauthorized disclosure. In contrast, Derivative
Classifiers may only restate or paraphrase information that has already been classified.

On December 29, 2009, the President of the United States signed Executive Order
13526, “Classified National Security Information” (the Order), which establishes
current principles, policies, and procedures for classification. On June 25, 2010, the
National Archives and Records Administration’s Information Security Oversight
Office issued a directive (the Directive) in the CFR14 that included guidance to be
used by Federal agencies in implementing the Order.

In accordance with the Act’s requirements, the audit objectives were to (1) assess
whether applicable classification policies, procedures, rules, and regulations have been
adopted, followed, and effectively administered within such department, agency, or
component, and (2) identify policies, procedures, rules, regulations, or management
practices that may be contributing to persistent misclassification of material within
such department, agency, or component.

Audit Results:
OIG auditors reviewed NRC policies and procedures for its classified information
security program and developed five findings with corresponding recommendations
to improve agency compliance with current Federal Government standards. Auditors
also reviewed a non-statistical sample of classified documents produced by NRC
staff and found a limited number of marking errors but no evidence of systemic
misclassification.

Original Classifier Training

The Order and the Directive require Original Classifiers to undergo annual training.15
Further, Original Classifiers who do not undergo annual training are to have their
authority suspended.16 Through interviews with 3 of 11 NRC personnel who have
original classification authority, auditors learned that these personnel had not taken

13
     Public Law 111-258, Section 2, “Findings.”
14
     32 CFR Parts 2001 and 2003.
15
     E.O. 13526, Section 1.3(d) and 32 CFR 2001.71(c).
16
     Original Classifiers may receive a waiver if they are unable to take required training because of unavoidable
     circumstances.


                                                                                               April 1, 2013–September 30, 2013 — 17
                     required training. Required Original Classifier training has not occurred because
                     NRC’s Management Directive 12.2, NRC Classified Information Security Program, does
                     not prescribe training in accordance with current Federal standards. NRC’s Original
                     Classifiers who fail to meet their training requirements cannot perform classification
                     work in an emergency, or in other unexpected circumstances that might require
                     them to exercise their authority. Further, this training is intended to cover relevant
                     administrative duties in addition to classification that Original Classifiers may need to
                     perform as part of their work.

                     Training Certification Is Not Documented as Required

                     Federal law requires documentation of training for Original and Derivative
                     Classifiers. Public Law 111-258 specifically states that training for Original and
                     Derivative Classifiers is a prerequisite, “as evidenced by an appropriate certificate or
                     other record” for obtaining original classification authority or derivatively classifying
                     information, and for maintaining such authority.17 However, NRC classifiers are not
                     issued training certificates or other documentation after completing required training.
                     NRC staff explained that individual classifiers’ training information is managed by
                     e-mail correspondence, and that cognizant staff maintain a record of this activity.
                     In contrast, other programs at NRC use the agency’s automated training system,
                     iLearn, to track training dates and validate credentials that require specific training.
                     Managing classifier training requirements and credentials centrally in NRC’s iLearn
                     system would provide classifiers and their supervisors better visibility over training
                     obligations, and would facilitate compliance with Public Law 111-258 criteria. It
                     would also mitigate risk associated with reliance on a single person to manage training
                     requirements and records through e-mail correspondence and computer desktop files.

                     NRC Conducts Self-Inspections With Limited Scope

                     Federal standards require agencies to conduct routine self-inspections of classified
                     information security programs. Specifically, the Order and the Directive state that
                     self-inspections are to include regular reviews of representative samples of original
                     and derivative classifications, and misclassifications are to be corrected.18 NRC
                     conducts self-inspections of its classified information security program.19 However,
                     these self-inspections do not include representative samples of classifications insofar
                     as the Office of Nuclear Security and Incident Response (the NRC office responsible
                     for classified information security) does not review work produced by classifiers
                     from other offices. Management Directive (MD) 12.2 calls for a self-inspection
                     program, but does not reflect current Federal standards. Specifically, NRC’s guidance
                     does not call for representative sampling of agency classifications and correction of
                     misclassifications. Expanded self-inspections would improve NRC’s oversight of
                     classification activity.




                     18
                          E.O. 13526 Section 5.4(d)(4), and 32 CFR 2001.60.
                     19
                          NRC reported having conducted two self-inspections in FY 2012.


18 — NRC Office of the Inspector General Semiannual Report to Congress
NRC Does Not Include Classification Duties in Staff Position Descriptions
and Performance Evaluations

Current Federal standards require NRC and other agencies to include classification
duties in staff performance management. However, most Derivative Classifiers at
NRC do not have classification duties in their position descriptions and are not rated
on these tasks. Cognizant NRC staff are aware of this requirement but face labor
negotiation challenges in meeting it. Developing a solution would benefit NRC
because Federal policy emphasizes the importance of classification duties as well
as employees’ roles in promoting classified information security. NRC staff who
routinely process and/or handle classified information cannot be held accountable
and incentivized for this work if it is not considered as part of their formal position
description used for performance evaluations.

Management Directive 12.2 Needs Comprehensive Update

NRC’s internal policy requires the agency’s management directives to be updated
to reflect changes in Federal law and regulation, and to be revised every 5 years
following a management directive’s last complete revision. NRC has not updated
MD 12.2 to reflect current Federal policy and some agency practices. NRC’s process
for revising management directives has deferred revision of MD 12.2 (last approved
in July 2006, with exception of one page that was updated in August 2007) until 2014.
NRC should comply with internal standards for management directive revision to
ensure staff have current and accurate guidance to support their work. Beyond the
practical importance of timely management directive revisions, alignment between
NRC guidance and higher level Federal guidance is important for positioning NRC
as a responsive, transparent regulatory organization.

(Addresses Management and Performance Challenge #2)



Audit of NRC’s Ongoing Eligibility for Access Authorization
OIG Strategic Goal: Security
The objective of NRC’s personnel security program is to provide assurance that those
with access to NRC facilities, classified information, sensitive NRC information and
equipment, nuclear power facilities, and special nuclear material20 are reliable and
trustworthy. In order to provide such assurance, NRC’s Personnel Security Branch
(PSB) administers the personnel security program, granting or denying access to
classified information.21

20
     Special nuclear material (SNM) is defined by Title I of the Atomic Energy Act of 1954 as plutonium, uranium-
     233, or uranium enriched in the isotopes uranium-233 or uranium-235. The definition includes any other
     material that the Commission determines to be SNM, but does not include source material. NRC has not
     declared any other material as SNM.
21
     The Office of Personnel Management (OPM) Federal Investigative Services Division is NRC’s investigative
     provider. NRC applicants, employees, contractors, and licensees are submitted for investigation through OPM.


                                                                                            April 1, 2013–September 30, 2013 — 19
                                                              Access authorization is an administrative determination
                                                              that an individual is eligible for a security clearance
                                                              for access to Restricted Data22 or National Security
                                                              Information.23 Access authorization eligibility
                                                              requires an affirmative determination by PSB that the
                                                              person in question is an acceptable security risk. The
                                                              determination is a comprehensive, commonsense
                                                              judgment, made after consideration of all the
                                                              information, favorable or unfavorable, relevant to
                                                              whether granting access authorization would be clearly
                                                              consistent with the national interest.
Source: OIG
                     A favorable determination results in PSB issuing a security clearance. Classified
                     access requirements determine the type of clearance issued. All NRC employees are
                     required to have a security clearance. PSB primarily issues the following clearances:
                     Q Clearance – Top Secret, and L Clearance – Secret. As of August 2013, 1,196 NRC
                     employees had Q clearances, 3,146 had L clearances, and 296 were designated as L(H)
                     (Secret – High Public Trust).24

                     Maintaining access authorization requires periodic background reinvestigations and
                     adherence to security requirements. Individuals who possess “Q,” “L(H),” or “L”
                     security clearances undergo reinvestigations and may also be reinvestigated if, at any
                     time, there is reason to believe that they may no longer meet the standards for access
                     authorization. PSB initiates a reinvestigation every 5 years for “Q” and “L(H)” (high
                     public trust) clearances and every 10 years for “L” clearances. Additionally, individuals
                     are required to self-report information to PSB that might compromise their
                     continued eligibility for access to NRC facilities, material, or classified information.

                     The audit objective was to determine if NRC has processes in place to ensure that
                     NRC employees comply with personnel reporting responsibilities for continued NRC
                     access authorization eligibility.

                     Audit Results:
                     NRC employees are required to comply with personnel reporting responsibilities for
                     continued access authorization. Specifically, employees are required to report certain
                     events that may bring into question their reliability and trustworthiness. For example,
                     the following are some of the events employees are required to report:




                     22
                          Restricted Data: Information classified by the Atomic Energy Act, whose compromise would assist in the design,
                          manufacture, or utilization of nuclear weapons.
                     23
                          National Security Information: Information classified by an Executive Order, whose compromise would cause
                          damage to the national security.
                     24
                          NRC also issues L(H) high public trust clearances. Classified access requirements for individuals with L and
                          L(H) clearances are the same. However, individuals with L(H) clearances undergo a more rigorous initial
                          background investigation and receive more frequent periodic reinvestigations.


20 — NRC Office of the Inspector General Semiannual Report to Congress
•	 Use of intoxicating beverages habitually to excess without evidence of
    rehabilitation.

•	 Use of, trafficking in, sale, transfer, or possession of an illegal drug or other
    controlled substance (except as prescribed by a physician licensed to dispense
    drugs in the practice of medicine), without evidence of rehabilitation.

•	 Arrests, charges, detentions, or any criminal conduct that indicates a history
    or pattern of criminal activity that creates doubt about a person’s judgment,
    reliability, or trustworthiness.

•	 Any financial considerations that indicate an inability or an unwillingness to
    satisfy debts, and financial problems linked to gambling, drug abuse, alcoholism,
    or other issues of a security concern.

NRC employees rarely comply with personnel reporting responsibilities for
continued access authorization. OIG reviewed a judgmentally selected sample
of 35 NRC employee background reinvestigations to determine compliance with
reporting responsibilities and found 26 files containing information developed during
the reinvestigation concerning certain events that might bring into question staff
reliability and trustworthiness. These events should have been reported to PSB prior
to the initiation of the reinvestigation. (The majority of the reportable events were
financial in nature.) However, only 3 of 26 employees (approximately 11.5 percent)
complied with personnel reporting responsibilities and reported to PSB as required by
regulation.

NRC does not have sufficient processes in place to ensure that NRC employees
comply with personnel reporting responsibilities for continued NRC access
authorization eligibility. Specifically, NRC does not regularly inform employees of
personnel reporting responsibilities and there is no process to impose consequences
for not self-reporting.

Certain types of information must be assiduously protected. When a person’s actions
show evidence of unreliability or untrustworthiness, questions arise whether the
person can be relied on to protect classified information. The unauthorized disclosure
of classified information can cause irreparable damage to the national security and loss
of human life.

(Addresses Management and Performance Challenge #2)




                                                                       April 1, 2013–September 30, 2013 — 21
                     Audits in Progress
                     Audit of NRC’s Implementation of Its NEPA
                     Responsibilities
                     OIG Strategic Goal: Safety
                     NEPA required Federal agencies to consider the environmental impacts of actions
                     under their jurisdiction. NEPA requires that an EIS of the proposed action be prepared
                     for major Federal actions significantly affecting the quality of the human environment.
                     Consultations among stakeholders to ensure compliance with statutory mandates, such
                     as with Section 7 of the Endangered Species Act of 1973 and Section 106 of the National
                     Historic Preservation Act of 1966, are also part of the NEPA review process.

                     NEPA broadly impacts NRC. Several agency offices conduct environmental reviews.
                     A NEPA review may be initiated in response to a rulemaking, an application for
                     a new license or certification, a license amendment, or a decommissioning plan
                     submitted to the NRC. Generic EISs have been developed to guide staff in the
                     areas of nuclear plant licensing renewal, decommissioning of nuclear facilities, and
                     applications for in situ uranium recovery operations. Standard review plans support
                     staff environmental reviews in other areas. Growing public concern over licensing
                     issues such as reactor aging and spent fuel storage heightens the importance of
                     successfully completing environmental reviews.

                     The audit objective is to determine whether NRC implements its environmental
                     review and consultation responsibilities as prescribed by NEPA.

                     (Addresses Management and Performance Challenge #3)



                     Audit of NRC’s Oversight of Equipment Aging
                     OIG Strategic Goal: Safety
                     The U.S. fleet of commercial nuclear power plants is aging with an average age
                     over 29 years. Additionally, approximately 90 percent of the 104 licensed plants
                     have either received, are awaiting approval for, or intend to seek a 20-year license
                     extension. This presents emergent challenges as previously unseen equipment
                     failures occur. Aging failures can affect major components such as unit transformers,
                     reactor coolant/recirculation pumps, and other large motors, and present material
                     challenges, such as cracks in thermally treated components and related equipment
                     degradation. Failures of these components can result in operating anomalies and
                     degraded safety equipment, both affecting nuclear safety.

                     The audit objective is to determine if NRC is providing effective oversight of
                     industry’s aging component programs.

                     (Addresses Management and Performance Challenge #3)


22 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Support for Resident Inspectors
OIG Strategic Goal: Safety
The core of the NRC inspection program for nuclear power plants and fuel-cycle
facilities is carried out by resident (onsite) inspectors. These inspectors provide an onsite
NRC presence for direct observation and verification of licensees’ ongoing activities.
Generally, the NRC regions manage resident inspector assignments, which include at
least two inspectors that are assigned to each site for a period of up to 7 years.

Resident inspector guidance stems from various sources. For example, for operating
reactors, Inspection Manual Chapter 1202, Senior Resident and Resident Inspector Site
Turnover, provides guidelines to ensure that resident inspectors new to a site have the
necessary knowledge and site familiarity to successfully implement the reactor oversight
process (including allegations and enforcement) and emergency response duties.

During the course of their assignment, the resident inspectors variously also require
additional types of support for such areas as telecommunications, human resources,
technical review, and legal counsel. Furthermore, the ability to communicate
effectively and efficiently with the regional offices, NRC headquarters, and other
resident inspectors is vitally important to their ability to meet the expectations of
NRC management and the public.

The audit objectives are to evaluate the effectiveness of NRC support provided to the
resident inspectors at nuclear power plants, fuel-cycle facilities, and construction sites.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s Information Technology Governance
OIG Strategic Goal: Corporate Management
IT governance pertains to stewardship of IT resources in order to most efficiently
and effectively attain agency vision, mission, goals, and objectives.

NRC has two IT governance boards – the Information Technology/Information
Management Board (ITB) and the Information Technology/Information Management
Portfolio Executive Council (IPEC). The ITB is a review body created to make
recommendations to the IPEC on the agency’s IT architecture, perform portfolio
analyses, and review technologies and standards. The IPEC is an executive
management body established to provide strategic direction and to set fiscal year
priorities, among other things. NRC also performs other types of management
control activities that are overseen by these governance boards.

The audit objective will be to assess the effectiveness of NRC’s current IT
governance in meeting the agency’s current and future IT needs.

(Addresses Management and Performance Challenge #5)


                                                                          April 1, 2013–September 30, 2013 — 23
                     Audit of NRC’s FY 2013 Financial Statements
                     OIG Strategic Goal: Corporate Management
                     Under the Chief Financial Officers Act and the Government Management and Reform
                     Act, the OIG is required to audit the financial statements of the NRC. OIG will
                     measure the agency’s improvements by assessing corrective action taken on prior
                     audit findings. The report on the audit of the agency’s financial statements is due on
                     December 16, 2013. In addition, OIG will issue reports on:

                     •	 Special Purpose Financial Statements.

                     •	 Implementation of the Federal Managers’ Financial Integrity Act.

                     •	 Summary of Performance and Financial Information.

                     •	 Agency compliance with the Improper Payments Elimination and Recovery Act of
                         2010.

                     The audit objectives are to:

                     •	 Express opinions on the agency’s financial statements and internal controls.

                     •	 Review compliance with applicable laws and regulations.

                     •	 Review the controls in the NRC’s computer systems that are significant to the
                         financial statements.

                     •	 Assess the agency’s compliance with OMB Circular A-123, Revised, Management’s
                         Responsibility for Internal Control.

                     •	 Assess agency compliance with the Improper Payments Elimination and Recovery Act
                         of 2010.

                     (Addresses Management and Performance Challenge #6)




24 — NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Process for Addressing Bankruptcy of
Materials Licensees
OIG Strategic Goal: Safety
An NRC materials licensee’s financial condition could affect its ability to control
licensed material. Provisions of the Atomic Energy Act and regulations in 10 CFR
require that NRC licensees notify NRC in the case of bankruptcy. These provisions
are in place to assure that appropriate measures to protect the public health and
safety have been or will be taken during a licensee’s bankruptcy filing. These
measures include:

•	 Maintaining security of licensed material and contaminated facilities.

•	 Assuring that licensed material is transferred only to properly authorized NRC
    or Agreement State licensees.

NRC’s Bankruptcy Review Team was formed to review and act on bankruptcy
notifications as they occur. NRC staff are then required to address any concerns
identified that may impact public health and safety.

The audit objective is to determine if NRC has reasonable assurance that appropriate
measures to protect the public health and safety have been or will be taken during
bankruptcies involving byproduct, source, or special nuclear materials licensees.

(Addresses Management and Performance Challenge #1)



Audit of NRC’s Use of the NEWFlex Program
OIG Strategic Goal: Corporate Management
NRC Employee Work Schedule Flexibilities (NEWFlex) is a program that offers
expanded work schedule and additional credit hour options to help employees balance
their work/life activities while at the same time assuring that each NRC office is able
to execute its mission. This program is available to almost all NRC staff. NEWFlex
is optional to employees, and the schedule is subject to supervisory approval. The
program offers a flexible (variable) schedule that includes, but is not limited to, an
extension of hours, schedules that can vary daily, and core hours. NEWFlex applies to
employees while working at home, and supports the agency’s telework initiative.

Each Federal agency must determine (1) whether to establish alternative work schedule
programs; (2) how to administer the programs efficiently; (3) how to comply with the
spirit of the President’s memoranda of July 11, 1994, and June 21, 1996, on providing
family-friendly work arrangements; and (4) how to ensure that the programs do not
cause an adverse agency impact. Agencies wishing to establish flexible or compressed



                                                                      April 1, 2013–September 30, 2013 — 25
                     work schedules permitted under 5 U.S.C. 6122 and 5 U.S.C 6127 do not need Office of
                     Personnel Management approval.

                     The audit objectives are to assess (1) NRC’s adherence to applicable laws and
                     regulations, (2) the adequacy of NRC’s internal controls associated with the program,
                     and (3) whether the program adequately addresses unique situations such as drug
                     testing, official travel, and other events.

                     (Addresses Management and Performance Challenge #7)



                     Audit of NRC’s Full-Time Telework Program
                     OIG Strategic Goal: Corporate Management
                     The Telework Enhancement Act of 2010 (Public Law 111-292), was signed into law
                     on December 9, 2010. The act is a key factor in the Federal Government’s ability
                     to achieve greater flexibility in managing its workforce through the use of telework.
                     Telework (1) is a strategy to improve Continuity of Operations to help ensure that
                     essential Federal functions continue during emergency situations, (2) promotes
                     management effectiveness when telework is used to target reductions in management
                     costs and environmental impact and transit costs, and (3) enhances work-life balance,
                     i.e., telework allows employees to better manage their work and family obligations.
                     The law specifies roles and responsibilities for the Office of Personnel Management,
                     General Services Administration, Office of Management and Budget, Department
                     of Homeland Security, National Archives and Records Administration, and others to
                     provide overall guidance to Federal executive agencies.

                     The term telework or teleworking refers to a work flexibility arrangement under
                     which an employee performs the duties and responsibilities of their position, and
                     other authorized activities, from an approved worksite other than the location from
                     which the employee would otherwise work. In practice, telework represents a work
                     arrangement that allows an employee to perform work, during any part of regular,
                     paid hours, at an approved alternative worksite such as home or a telework center.
                     This definition of telework includes what is generally referred to as remote work, but
                     does not include any part of work done while on official travel.

                     In the past, agencies have sometimes used the term remote to describe a work
                     arrangement in which the employee resides and works at a location beyond the local
                     commuting area of the employing organization’s worksite or to describe a full-time
                     telework arrangement. For reporting purposes, these employees should be included
                     as teleworkers. While some agencies do permit full-time telework, it is not the
                     norm. In fact, the act specifically identifies the following categories of part-time
                     participation and requires that agencies report on the specific number of employees
                     each year that telework:

                     •	 3 or more days per pay period (denotes a biweekly pay period).


26 — NRC Office of the Inspector General Semiannual Report to Congress
•	 1 or 2 days per pay period.

•	 Once per month.

•	 On an occasional, episodic, or short-term basis (i.e., situational telework such as
    ad-hoc or unscheduled telework).

Specifically, with regard to program implementation of full-time telework, each
agency’s policies should identify whether full-time telework arrangements are
allowable in the agency and, if so, aspects of the employment arrangement that
could potentially change if an employee teleworks full-time (e.g., could there be
consequences to locality pay, benefits, travel, reduction-in-force procedures, etc.).

The audit objectives are to determine (1) if NRC’s telework program complies with
applicable laws and regulations, and (2) the adequacy of internal controls over the program.

(Addresses Management and Performance Challenge #7)



Independent Evaluation of NRC’s Implementation of the
Federal Information Security Management Act (FISMA)
for Fiscal Year 2013
OIG Strategic Goal: Security
The Federal Information Security Management Act (FISMA) was enacted on
December 17, 2002. FISMA permanently reauthorized the framework laid out in
the Government Information Security Reform Act, which expired in November 2002.
FISMA outlines the information security management requirements for agencies,
including the requirement for an annual review and annual independent assessment by
agency IGs. In addition, FISMA includes new provisions such as the development of
minimum standards for agency systems, aimed at further strengthening the security of
Federal Government information and information systems. The annual assessments
provide agencies with the information needed to determine the effectiveness of
overall security programs and to develop strategies and best practices for improving
information security.

FISMA provides the framework for securing the Federal Government’s information
technology including both unclassified and national security systems. All agencies
must implement the requirements of FISMA and report annually to OMB and
Congress on the effectiveness of their security programs.

The objective is to conduct an independent evaluation of the NRC’s implementation
of FISMA for FY 2013.

(Addresses Management and Performance Challenge #2)



                                                                        April 1, 2013–September 30, 2013 — 27
                     Audit of NRC’s Method for Retaining and Documenting
                     Information Supporting the Yucca Mountain Licensing
                     Process
                     OIG Strategic Goal: Safety
                     In March 2010, the Department of Energy (DOE) filed a motion with NRC to
                     withdraw its license application for the Yucca Mountain high level waste repository.
                     Subsequently, the former Chairman directed NRC staff to take actions to facilitate
                     an orderly closeout of the Yucca Mountain review process, including documenting
                     material reviewed to date for retention purposes and potential future review in
                     accordance with agency policy.

                     It is the policy of the NRC that all official records made or received by the NRC
                     in the course of its official business comply with the regulations governing Federal
                     records management issued by the National Archives and Records Administration
                     and the General Services Administration. Specifically, agency policy on the retention
                     of records and information states that records are to be maintained and preserved
                     as evidence of the NRC’s organization, functions, policies, decisions, procedures,
                     operations, or other activities….” Additionally, agency records are to be maintained
                     in such a way that all information can be stored safely and retrieved easily when
                     necessary….”

                     Given the uncertainty and public interest surrounding the issue of high-level waste
                     storage, it is important that NRC maintain agency records related to the review
                     of the Yucca Mountain high level waste repository DOE license application in
                     accordance with Federal requirements and agency policy.

                     The audit objective is to determine if agency policy and procedures on document
                     management provide reasonable assurance that documentation related to the review
                     of the Yucca Mountain facility has been appropriately documented and retained.

                     (Addresses Management and Performance Challenge #4)




28 — NRC Office of the Inspector General Semiannual Report to Congress
Investigations
During this reporting period, OIG received 100 allegations, initiated 39 investigations,
and closed 35 cases. In addition, the OIG made 6 referrals to NRC management and 7 to
the Department of Justice.

Investigative Case Summaries
Region IV’s Potential Violation of the No Fear Act25
OIG Strategic Goal: Corporate Management
OIG conducted an investigation based on a number of allegations in an anonymous
letter sent to Congress and the NRC Commission alleging that an NRC Region IV
manager retaliated against regional staff for raising safety issues involving inspection
activities at the Fort Calhoun Station nuclear power plant, concerning an onsite fire,
and the adequacy of flood protection measures. It was further alleged that Region
IV has a chilled workplace environment that dissuades inspectors from identifying
safety issues that may be challenged by regional management.

Investigative Results:
OIG found that the Region IV manager supported the issuance of a yellow finding
(substantial safety significance) rather than a red finding (high safety significance)
regarding conditions relating to the 2011 fire based on specific technical concerns
about the accuracy of a red characterization. Notwithstanding the manager’s
expressed views, a red finding was issued in this matter as a preliminary and a final
finding. Additionally, OIG found that the manager raised concerns about the
basis for a yellow finding concerning flood protection measures at the site. The
resolution of the concerns resulted in a long delay in reporting the finding, but
concluded with the manager supporting the yellow finding.

OIG found that despite staff assertions, there was no evidence that the manager
altered or removed safety findings from inspection reports without the concurrence
of the reporting inspector.

OIG also found that performance appraisals for Region IV risk analysts under the
manager’s supervision were downgraded in the 2009 performance year. There was
no evidence that these downgrades were related to and in retaliation for raising
safety issues. In a separate issue, evidence was developed that a Region IV reactor
inspector received a performance downgrade following a disagreement with the
manager over a 2009 inspection finding, and that the disagreement was a factor in
the downgrade.

In addition, OIG found widespread concern among Region IV employees about
interaction with the manager due to his interpersonal behavior. Employees did

25
     The No FEAR Act provides for an environment where employees feel confident in coming forward to report
     possible violations of law, rule, or regulation; gross mismanagement; gross waste of funds; abuse of authority; or a
     substantial and specific danger to public health and safety.


                                                                                                April 1, 2013–September 30, 2013 — 29
                     distinguish the manager’s interpersonal manner from his commitment to safety.
                     However, OIG did find that negative perceptions of the manager’s style created
                     perceptions among some Region IV employees of a chilled workplace environment.

                     Further, OIG found that Region IV managers had been apprised of specific
                     concerns from non-supervisory employees and branch chiefs about the manager’s
                     behavior, but that while some remedial measures were proposed, none included
                     formal or documented performance counseling.



                     NRC Region III’s Handling of a Pinhole Coolant Leak at
                     Davis-Besse Nuclear Power Station, Oak Harbor, OH
                     OIG Strategic Goal: Safety
                     OIG completed an investigation into a congressional concern that the NRC Region
                     III Public Affairs Officer (PAO) provided inaccurate and misleading information
                     pertaining to a pressure boundary leak in a pipe at FirstEnergy’s Nuclear Power
                     Station, Davis-Besse, located in Oak Harbor, OH.

                     It was alleged that after FirstEnergy discovered “a pinhole coolant leak in a pipe
                     weld while performing a walk down inspection of the plant,” the PAO was quoted
                     in a June 7, 2012, Bloomberg News article stating that the leak was below the NRC
                     threshold for mandatory reporting. Further, it was alleged that the leak at Davis-
                     Besse was not below NRC’s threshold for mandatory reporting and Region III had
                     publicly provided an inaccurate statement.

                     Additionally, the congressional concern included a disparity among statements
                     made by NRC staff, the NRC Region III PAO, and FirstEnergy regarding
                     cracking in Davis-Besse’s shield building wall that was discovered by the licensee
                     on October 11, 2011. The PAO and FirstEnergy publicly stated that the cracks
                     were in an architectural or decorative element of the wall that had no structural
                     significance; however, NRC staff later stated that the cracking in the shield
                     building wall was in a structurally significant area of the wall.

                     Investigative Results:
                     OIG found that the Bloomberg News reporter misquoted the NRC Region III
                     PAO in the June 7, 2012, news article concerning the need for the licensee to report
                     to NRC the pressure boundary leak in the Davis-Besse pipe. OIG found that with
                     the PAO’s assistance, the Bloomberg News editor published another article on
                     July 25, 2012, that corrected the June 7th article and accurately quoted the PAO in
                     stating the plant was required to report the leak to the NRC.

                     With regard to the cracking of the shield building wall, OIG found that NRC’s
                     initial characterization of this incident was based on preliminary information



30 — NRC Office of the Inspector General Semiannual Report to Congress
obtained from FirstEnergy. As more information became available to NRC, the
agency revised its description of the cracking issue, and its later descriptions were
therefore different than its earlier descriptions.

OIG also found that NRC inspected the Davis-Besse shield building cracking and
NRC concluded that the cracking did not affect the ability of the shield building to
perform its design function.

(Addresses Management and Performance Challenge #1)



Misuse of Transit Subsidy Benefit Program
OIG Strategic Goal: Corporate Management
OIG completed an investigation into allegations that an NRC employee used their
Washington Metropolitan Area Transit Authority (Metro) Transit Subsidy Benefits
Program (TSBP) funds to pay for parking for their privately owned vehicle. An
initial review of the employee’s Metro Transit Subsidy SmarTrip transaction
history revealed there were several occasions where the employee paid for parking
without reimbursing the money received from the TSBP.

Investigative Results:
OIG reviewed the NRC TSBP application (NRC Form 546) signed by the
employee and approved by NRC on May 3, 2011. On the bottom of the NRC
Form 546 is a certification block each applicant must read and sign. The
certification block in part includes the following statement: “I will use the
appropriate portion of my eligible monthly benefit for my actual monthly
commuting cost by public transportation or eligible van pool.” The NRC Form
546 indicated the employee would commute to the NRC using Metrorail from the
New Carrollton Station to the White Flint Station, and return, 20 days per month,
totaling $204.00 in monthly transit subsidy benefits. Both the NRC Form 546
and the NRC TSBP questions and answers state that the program benefits do not
include parking.

OIG reviewed the employee’s transit subsidy SmarTrip transaction history for the
period January 2008 through mid-September 2011. The employee commuted by
both Metrorail and by her privately owned vehicle during this time. The employee
paid for parking on approximately 617 separate occasions, totaling $5,216.75.
The employee deposited her own funds in the amount of $150.00 onto her
SmarTrip card. After subtracting personal deposits, the total amount of potential
TSBP funds misused was $5,066.75. The employee’s service with the NRC was
terminated in May 2013.

(Addresses Management and Performance Challenge #6)



                                                                     April 1, 2013–September 30, 2013 — 31
                     Logon Credential Harvesting Using Google Spreadsheets
                     OIG Strategic Goal: Security
                     OIG completed an investigation into an allegation that an unknown individual(s)
                     sent a spear phishing e-mail to approximately 215 NRC e-mail accounts containing
                     a link to harvest NRC network user ID and passwords (credentials). The link in the
                     e-mail went to a Google Doc spreadsheet asking users to “validate” their network
                     credentials. At least 12 NRC users were identified as having clicked on the link and
                     accessing the Google Doc spreadsheet page.

                     Investigative Results:
                     OIG investigative activity identified an account created in Malaysia for the sole
                     purpose of sending the spear phishing emails. Additionally, it was determined 55
                     non-NRC issued user accounts were associated with other Federal Government
                     agencies. OIG notified the other Federal Government agencies of the potential
                     compromise of their users’ accounts.

                     OIG was unable to conclusively identify the person(s) engaging in the spear
                     phishing activities against the NRC. The investigation identified several suspects
                     located in different foreign countries who may be participants in a scheme to
                     fraudulently obtain network logon credentials from a variety of sources, including
                     the U.S. Government, to send spear phishing e-mail messages. Investigative leads
                     sent to these other countries resulted in no international law enforcement action
                     being taken against the targets. As a result, OIG was unable to identify domestic
                     targets who may be involved in the operation.

                     (Addresses Management and Performance Challenge #5)



                     NRC Handling of Contractor Award Process for
                     Region I Contract
                     OIG Strategic Goal: Corporate Management
                     OIG completed an investigation initiated by a letter from Congress. The letter
                     conveyed that a constituent, a former Small Business Administration (SBA) 8(a)
                     business owner, alleged that NRC inappropriately awarded an SBA 8(a) contract
                     that the alleger previously held to a different contractor to provide human resources
                     support to NRC’s Region I office.

                     Investigative Results:
                     OIG learned that the former contractor, a human resources consulting service
                     contractor, had a contract with NRC from 2002 until 2012 to perform services
                     for NRC’s Region I office. The company was a participant in SBA’s 8(a) Business


32 — NRC Office of the Inspector General Semiannual Report to Congress
Development Program, a business assistance program for small disadvantaged
businesses. Under the program, businesses owned and controlled by a “socially and
economically disadvantaged individual” can receive sole-source contracts up to a
ceiling of $4 million for goods and services. Participation is limited to 9 years and,
after that time, neither the business nor the individual is eligible to participate again.
OIG learned that on October 1, 2012, NRC awarded the NRC Region I contract to
a a different 8(a) company, since the former contractor had graduated from the SBA
8(a) program and was not eligible to compete for the contractual services.

(Addresses Management and Performance Challenge #7)



Contract Irregularities Associated With Information
Technology Contractor
OIG Strategic Goal: Corporate Management
OIG completed an investigation into an anonymous allegation that an NRC
contractor was not providing IT infrastructure services and support mandated under
its contract with NRC. According to the allegation, the NRC contractor was not
providing printers, supplies, and maintenance that NRC desperately needed and was
cutting costs by providing inexperienced personnel to work on the contract.

Investigative Results:
A review of the NRC contract disclosed that the contract is an indefinite delivery,
indefinite quantity contract, containing firm-fixed-price and labor hours for IT
infrastructure services and support, that was awarded to the contractor for the base
period February 18, 2011, through February 17, 2014, with three option years
ending on February 17, 2017. The contract supports the NRC IT infrastructure
and provides NRC headquarters, regional offices, resident inspector sites, the NRC
Technical Training Center, and mobile NRC users with the vast majority of needed
IT services, including desktop and laptop computers, servers, office productivity
software, e-mail, help desk, BlackBerry devices, network file storage, network
printers, network management, IT operational security, data backup and recovery,
and new technology integration.

OIG learned that under the firm-fixed-price and labor hours contract, the
Government has a predetermined, agreed-upon price for a specific type of work,
including labor and price for items. A firm-fixed-price contract is not subject to
price adjustment on the basis of the contractor’s cost experience in performing the
contract, and it allocates to the contractor the maximum risk and responsibility for
its performance cost and resulting profit or loss. Consequently, because this is a
firm-fixed-price contract, NRC is not concerned about the salary of individuals who
are supporting the contract as long as the contractor is providing individuals who
can fulfill the contract requirements. The actual salary is between an individual
employee and the contractor.

                                                                      April 1, 2013–September 30, 2013 — 33
                     In addition, regarding the issue of whether the contractor personnel lacked
                     experience in properly managing the contract, OIG found that early in the contract,
                     NRC had issues with one of the contractor manager’s level of experience. However,
                     after this issue was brought to the attention of the contractor, the contractor
                     replaced the manager and, since then, the contractor has done well in managing the
                     contract.

                     OIG also found that the NRC contractor has been fulfilling the contract in a timely
                     manner and that it has always delivered printers within the allotted time and the
                     proper quantities.

                     (Addresses Management and Performance Challenge #5)




34 — NRC Office of the Inspector General Semiannual Report to Congress
  Summary of OIG Accomplishments
  April 1, 2013, through September 30, 2013

  Investigative Statistics
  Source of Allegations
                    NRC Employee                                      36

                 NRC Management                6

         Other Government Agency           3

                     General Public                           22

            OIG Proactive Initiative           6
                 Regulated Industry        3
                          Anonymous                      17
                          Intervenor       3
                      Congressional    1

                               Media   1

                          Contractor   2

                                               Allegations resulting from Hotline calls: 47
                                                                               Total: 100



  Disposition of Allegations

                               Total                                                                      100
             Closed Administratively                                 40

     Referred for OIG Investigation                           29

Referred to NRC Management and Staff                16

             Pending Review Action             6

         Correlated to Existing Case            8

             Referred to OIG Audit     1




                                                                           April 1, 2013–September 30, 2013 — 35
                     Status of Investigations
                     DOJ Referrals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                     DOJ Acceptance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                     DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .7
                     Criminal Convictions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
                     Criminal Penalty Fines  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . $567,989.36
                     NRC Administrative Actions:
                     	     Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     	     Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3		
                     	     Other (Letter from Chairman) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                     State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                     State Declinations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                     State Accepted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                     PFCRA Referral  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                     PFCRA Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0



                     Summary of Investigations
                     Classification of 		          Opened 	 Closed 	 Cases in
                     Investigations	     Carryover	 Cases	 Cases	Progress

                     Employee Misconduct 	                                                27	                19	                17 	             29
                     Event Inquiry	                                                         2	                 0	                 0	               2
                     External Fraud	                                                        6	                 1	                 1	               6
                     False Statements	                                                      4	                 0	                 2 	              2
                     Management Misconduct	                                               12	                15	                  7	             20
                     Miscellaneous	                                                         3	                 1	                 2	               2
                     Proactive Initiatives	                                               10	                  3	                 3	             10
                     Technical Allegations	                                                 5	                 0	                 1	               4
                     Theft	                                                                 1	                 0	                 1	               0
                     Whistleblower Reprisal	                                                1	                 0	                 1	               0
                     	 	 Grand Total	                                                    71	                 39	               35	               75




36 — NRC Office of the Inspector General Semiannual Report to Congress
Audit Listings
Date          Title                                                  Audit Number

04/01/2013	   Audit of NRC’s Safeguards Information Local 		         OIG-13-A-16
		            Area Network and Electronic Safe

04/16/2013	   Audit of NRC’s Travel Charge Card Program		            OIG-13-A-17

05/07/2013	   Audit of NRC’s Budget Execution Process		              OIG-13-A-18

06/03/2013	   Audit of NRC’s Information Technology Readiness	       OIG-13-A-19
		            for Three White Flint North

08/20/2013	   Audit of NRC’s Compliance With 10 CFR Part 51 	        OIG-13-A-20
		            Relative to Environmental Impact Statements

09/12/2013	   Audit of NRC’s Implementation of Federal Classified	   OIG-13-A-21
		            Information Laws and Policies

09/12/2013	 Audit of NRC’s Ongoing Eligibility for Access		          OIG-13-A-22
		Authorization




                                                               April 1, 2013–September 30, 2013 — 37
          Contract Audit Reports
          OIG 	             Contractor/Title/	                           Questioned	   Unsupported
          Issued Date	      Contract Number	                             Costs	        Costs
          04/15/2013        Dade Moeller & Associates, Inc.              0             0
                            Independent Evaluation of
                            Dade Moeller & Associates,
                            Inc. FY 2013 Provisional
                            Billing Rates
                            NRC-HQ-11-C-04-0012

          09/04/2013        Southwest Research Institute                 0             0
                            Independent Audit of
                            Southwest Research
                            Institute’s General Dollar
                            Magnitude Cost Impact
                            NRC-02-06-018
                            NRC-02-06-021
                            NRC-41-09-011
                            NRC-03-09-070
                            NRC-03-10-066
                            NRC-03-10-070
                            NRC-03-10-081
                            NRC-04-10-144
                            NRC-HQ-11 -C-03-0047
                            NRC-HQ-11 -C-03-0058

          09/04/2013        Southwest Research Institute                 0             0
                            Independent Audit of
                            Southwest Research Institute’s
                            FY 2011 Pre-Established Fringe
                            Burden Rate for Provisional
                            Billing Purposes
                            NRC-02-06-018
                            NRC-02-06-021
                            NRC-41-09-011
                            NRC-03-09-070
                            NRC-03-10-066
                            NRC-03-1 0-070
                            NRC-03-10-081
                            NRC-04-10-144
                            NRC-HQ-11-C-03-0047
                            NRC-HQ-11-C-03-0058




38 — NRC Office of the Inspector General Semiannual Report to Congress
Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs26
	                                                                              	      Questioned	Unsupported
	                                                                          Number of	   Costs	      Costs
Reports	                                                                    Reports	 (Dollars)	(Dollars)

A. 	 For which no management decision
     had been made by the commencement
     of the reporting period	                                                     1	                     $540,637	         0

B. 	 Which were issued during the reporting
     period	                                                                      0	 0	0

	          Subtotal (A + B)	                                                      0	 0	0	

C. 	 For which a management decision was
     made during the reporting period:	

	          (i) dollar value of disallowed costs	                                  0	                           0	          0	

	          (ii) dollar value of costs not disallowed	                             1	                     $540,637	         0	

D. 	 For which no management decision had
     been made by the end of the reporting period	                                0	                           0	          0




26
     Questioned costs are costs that are questioned by OIG because of an alleged violation of a provision of a law,
     regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure
     of funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a
     finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.



                                                                                               April 1, 2013–September 30, 2013 — 39
                   TABLE II
                   OIG Reports Issued with Recommendations
                   That Funds Be Put to Better Use27
                   	                                                                                 Number of	                Dollar Value
                   Reports	                                                                           Reports	                  of Funds

                   A.	        For which no management decision	 0	 0
                              had been made by the commencement
                              of the reporting period			

                   B.	        Which were issued during the 	 0	                                                                        0
                              reporting period		

                   C.	        For which a management decision was	
                              made during the reporting period:		

                   	           (i) 	 dollar value of recommendations	                                       0	                         0
                              	      that were agreed to by management

                   	           (ii) 	 dollar value of recommendations 	                                     0	                         0
                               	      that were not agreed to by management

                   D.	        For which no management decision had	                                         0	                         0
                              been made by the end of the reporting period




                   27
                        A “recommendation that funds be put to better use” is a recommendation by OIG that funds could be used more
                        efficiently if NRC management took actions to implement and complete the recommendation, including reductions
                        in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
                        guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the
                        operations of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of
                        contract or grant agreements; or any other savings which are specifically identified.




40 — NRC Office of the Inspector General Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                   Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	               OIG-03-A-15		
	              Nuclear Materials

 Recommendation 1: Conduct periodic inspections
	
 to verify that material licensees comply with material
 control and accountability (MC&A) requirements,
 including, but not limited to, visual inspections of
 licensees’ special nuclear material (SNM) inventories
 and validation of reported information.

 Recommendation 3: Develop and implement a quality
	
 assurance process that ensures that collected enforcement
 data is accurate and complete.




                                                                  April 1, 2013–September 30, 2013 — 41
            TABLE IV
            Summary of Audit Reports Without Management Decision for
            More Than Six Months
            Date		 Report Title	                                                           Number

            7/12/2012	      Audit of NRC’s Inspections, Tests, Analyses, 	                 OIG-12-A-16		
            	               and Acceptance Criteria (ITAAC) Process

            	Summary: OIG made 10 recommendations to the
               Executive Director for Operations of which one is
               unresolved.

                            Recommendation 10: Recommended that the Executive
                            Director for Operations develop and implement a
                            change management process to address future change in
                            the ITAAC process that can create barriers to effective
                            communication and coordination.

                            Reason Unresolved: NRC staff stated agreement with the
                            recommendation, yet the agency’s actions do not meet the
                            intent of OIG’s recommendation. According to NRC staff,
                            the Office of New Reactors (NRO) has incorporated the
                            principals of change management in the tools and processes
                            that facilitate and control ITAAC changes. OIG notes that
                            this is not the same as the development and implementation
                            of a change management process. NRC staff have recently
                            stated that agency senior management are evaluating the
                            implementation of an agency-level management system,
                            which is expected to include a change management
                            process. However, the agency has not provided to OIG any
                            documentation or details that describes how this effort will
                            be implemented. As a result, this recommendation remains
                            unresolved. OIG expects to receive an updated response
                            from NRC by March 7, 2014.




42 — NRC Office of the Inspector General Semiannual Report to Congress
Abbreviations and Acronyms
3WFN		 Three White Flint North
CFR		 Code of Federal Regulations
DOE		 Department of Energy
EIS		 Environmental Impact Statement
E-Safe		 electronic safe
FAIMIS		 Financial Accounting and Integrated Management System
FISMA		 Federal Information Security Management Act
FY		 fiscal year
IAM		 Issue Area Monitor
IG		 Inspector General
IPEC		 Information Technology/Information Management Portfolio Council
IT		 information technology
ITAAC		 Inspections, Tests, Analyses, and Acceptance Criteria
ITB		 Information Technology/Information Management Board
LAN		 Local Area Network
MC&A		 material control and accountablity
MD		 Management Directive
Metro		 Washinton Metropolitan Area Transit Authority
NEPA		 National Environmental Policy Act of 1969
NEWFlex		 NRC Employee Work Schedule Flexibilities
NRO		 Office of New Reactors (NRC)
NRC		 U.S. Nuclear Regulatory Commission
OCFO		 Office of the Chief Financial Officer
OIG		 Office of the Inspector General (NRC)
OMB		 Office of Management and Budget
PAO		 Public Affairs Officer
PSB		 Personnel Security Branch (NRC)
ROD 		 Record of Decision
SBA		 Small Business Administration
SGI		 Safeguards Information
SLES		 Safeguards Information Local Area Network System
SNM		 special nuclear material
TSBP		 Transit Subsidy Benefits Program




                                                         April 1, 2013–September 30, 2013 — 43
Reporting Requirements
                     The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
                     for semiannual reports. This index cross-references those requirements to the applicable
                     pages where they are fulfilled in this report.

                     	
                     Citation	           Reporting Requirements	                                        Page

                     Section 4(a)(2) 	 Review of Legislation and Regulations	                               6

                     Section 5(a)(1) 	 Significant Problems, Abuses, and Deficiencies	           9-21, 29-34

                     Section 5(a)(2) 	 Recommendations for Corrective Action	                            9-21

                     Section 5(a)(3) 	 Prior Significant Recommendations Not Yet Completed	                41

                     Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities	                        36

                     Section 5(a)(5) 	 Information or Assistance Refused	                              None

                     Section 5(a)(6) 	 Listing of Audit Reports	                                           37

                     Section 5(a)(7) 	 Summary of Significant Reports	                           9-21, 29-34

                     Section 5(a)(8) 	 Audit Reports — Questioned Costs	                                   39

                     Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use	                            40

                     Section 5(a)(10)	 Audit Reports Issued Before Commencement of 	                       42
                     	                 the Reporting Period for Which No Management
                     	                 Decision Has Been Made	

                     Section 5(a)(11) 	 Significant Revised Management Decisions	                      None

                     Section 5(a)(12) 	 Significant Management Decisions With Which	                   None
                     	                  the OIG Disagreed	

                     Section 989C.	      Peer Review Information	                                          45




44 — NRC Office of the Inspector General Semiannual Report to Congress
Appendix
Peer Review Information
The OIG Audit and Investigative Programs undergo a peer review every 3 years.

Investigations
The NRC OIG Investigative program was peer reviewed most recently by the
Corporation for National and Community Service Office of Inspector General.
The peer review final report, dated September 16, 2013, reflected that the NRC
OIG is in compliance with the quality standards established by the Council of
the Inspectors General on Integrity and Efficiency and the Attorney General
Guidelines for Offices of Inspectors General with Statutory Law Enforcement
Authority.

Audits
The NRC OIG Audit Program was peer reviewed most recently by the
National Archives and Records Administration Office of Inspector General on
September 27, 2012.




                                                                 April 1, 2013–September 30, 2013 — 45
                                                                         Control panel at a nuclear power plant.

46 — NRC Office of the Inspector General Semiannual Report to Congress
Construction progress at V.C. Summer Unit 3. Photo courtesy of   David Failla.



                       April 1, 2013–September 30, 2013 — 47
OIG VISION                                                           OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous            1. S
                                                                         trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”         and the environment.
                                                                     2. E nhance NRC’s efforts to increase security in response to an
                                                                        evolving threat environment.
OIG MISSION
                                                                     3. I ncrease the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct       which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs      resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover Photo:

McGuire Nuclear Station.
Photo coutesy of Duke Energy, LLC
The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.                     Office of the Inspector General
What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
                                                                                            Semiannual Report
• Conflicts of Interest
• Theft and Misuse of Property
• Travel Fraud
                                             • Misuse of Government Credit Card
                                             • Time and Attendance Abuse
                                             • Misuse of Information Technology Resources
                                                                                            to Congress
• Misconduct                                 • Program Mismanagement                        April 1, 2013–September 30, 2013

Ways To Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov
                               Click on Inspector General
                               Click on OIG Hotline



                               Write:
                               U.S. Nuclear Regulatory Commission
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 27, No. 1
October 2013
